t

APPENDIX: A

/

•

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS October 21, 2020
Christopher M. Wolpert
TENTH CIRCUIT
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
FREDERICO RAMSEY,

No. 19-3289
(D.C. No. 2:09-CR-20046-CM-4)
(D.C. No. 2:14-CV-02608-CM)
(D. Kan.)

Defendant-Appellant.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before HOLMES, BACHARACH and, MORITZ, Circuit Judges.

A federal prisoner, Mr. Frederico Ramsey, has filed a request for a certificate of
appealability (“COA”) to challenge the district court’s denial of his 28 U.S.C. § 2255
motion to vacate his drug convictions and sentence.1 Exercising jurisdiction under 28
U.S.C. § 1291, we deny Mr. Ramsey’s request for a COA and dismiss this matter.

This order is not binding precedent, except under the doctrines of law
of the case, res judicata, and collateral estoppel. It may be cited, however, for its
persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
1
Because Mr. Ramsey appears pro se, we afford his filings a liberal
construction, but we do not serve as his advocate. See, e.g., Garza v. Davis, 596 F.3d
1198,1201 n.2 (10th Cir. 2010); Fordv. Pryor, 552 F.3d 1174, 1178 (10th Cir. 2008).

I
Mr. Ramsey was convicted in 2010 of four charges related to the possession and
distribution of heroin, including a conspiracy charge where a drug-death resulted. In July
2011, he was sentenced to 292 months’ imprisonment. Mr. Ramsey appealed from his
convictions, and, in 2013, we affirmed both his convictions and sentence.
On December 4, 2014, Mr. Ramsey filed a pro se motion, pursuant to 28 U.S.C.
§ 2255, to vacate his sentence, based on twenty-two claims that his court-appointed
attorney was ineffective both before and during his trial and sentencing. In a September
16, 2015 order, the district court denied nearly all of Mr. Ramsey’s claims, but took three
under advisement. Eventually, in November 2019, the district court denied the three
remaining claims. The court also declined to issue a COA. This appeal followed.
II
To appeal the denial of relief under § 2255, a prisoner must receive a COA. See
28 U.S.C. § 2253(c)(1)(B) (“Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of appeals from ... the final order
in a proceeding under section 2255.”); see also Gonzalez v. Thaler, 565 U.S. 134, 142
(2012) (noting the “‘clear’ jurisdictional language ... in § 2253(c)(1)”). “We may grant a
COA only if the petitioner makes a ‘substantial showing of the denial of a constitutional
right.’” Milton v. Miller, 812 F.3d 1252, 1263 (10th Cir. 2016) (quoting 28 U.S.C.
§ 2253(c)(2)). Under this standard, Mr. Ramsey must show “that reasonable jurists could

-2-

debate whether ... the petition should have been resolved in a different manner or that
the issues presented were ‘adequate to deserve encouragement to proceed further.”’ Slack
v. McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893
n.4 (1983)).
Ill
Mr. Ramsey’s request for a CO A rests on two claims that his court-appointed
attorney was ineffective.
First, Mr. Ramsey alleges that his counsel was ineffective for failing to raise a
particular argument at trial and on appeal. Specifically, Mr. Ramsey contends that under
21 U.S.C. § 841(b)(1)(C), a penalty enhancement provision, the government had the
burden to show that his distribution of drugs was the “but-for” cause of the victim’s
death. See Aplt.’s Br. at 6 9. The Supreme Court later held as much in Burrage v.
United States, 134 S. Ct. 881 (2014), a ruling that came nearly four years after Mr.
Ramsey’s conviction.
Second, Mr. Ramsey alleges that his counsel was ineffective for failing “to apprise
him of the option and benefits of entering an open plea to be entitled to a three (3) level
reduction.” Aplt’s Opening Br. at 11. According to Mr. Ramsey, if his counsel had
informed him of this option, he would have received a sentence of 210 months instead of
the 292-month sentence that he ultimately received.

rv
-3-

We decline to grant Mr. Ramsey a COA on these two grounds. Both suffer from
the same defect: Mr. Ramsey never raised them before the district court in the § 2255
proceedings below.
“We have long applied the rule that we do not consider issues not raised in the
district court.” Owens v. Trammell, 792 F.3d 1234, 1246 (10th Cir. 2015). Thus, if an
“argument was not raised in [an appellant’s] habeas petition, it is waived on appeal.” Id.;
see also Harmon v. Sharp, 936 F.3d 1044, 1085 (10th Cir. 2019) (Holmes, J., concurring)
(“[I]n the AEDPA context, pur precedent usually has treated arguments that petitioners
have not advanced before the district court as waived viz., not subject to review at all.”).
This waiver principle holds true even if, as here, a prisoner generally alleges ineffective
assistance of counsel in the district court and on appeal yet includes new particular
claims of ineffective assistance of counsel for the first time on appeal. See Milton v.
Miller, 812 F.3d 1252, 1264 (10th Cir. 2016) (“Although this claim [in the defendant’s
COA request on appeal] and the Original Claim [in the original § 2255 petition] both
allege ineffective assistance of counsel, they are separate claims. [Defendant] cannot
allege an ineffective-assistance claim and then usher in anything fitting under that broad
category as the same claim. Counsel can perform ineffectively in myriad ways.”).
Mr. Ramsey’s initial § 2255 motion raised twenty-two claims of ineffective
assistance of counsel. Mr. Ramsey even later supplemented his initial motion with
several additional claims. Yet, he never raised the precise two claims presented in his

-4-

COA request. In light of our “general rule against considering issues for the first time on
appeal,” even in the habeas context, we will not consider these two new claims now as
grounds for a COA. United States v. Viera, 674 F.3d 1214, 1220 (10th Cir. 2012).
V
We therefore DENY Mr. Ramsey’s request for a COA and DISMISS this matter.

ENTERED FOR THE COURT
Jerome A. Holmes
Circuit Judge

-5-

♦

/

APPENDIX: B

f

k

i

«

*:

4

■
Frederico Ramsey
Petitioner,

UNITED . STATES DI STRICT ..COURT.
FOR THE DISTRICT OF KANSAS

^

Case No.: 09-CR-20046-04-CM

5

v.
United States of America,
Respondent. /
PETITION TO AMEND RAMSEY’.S § 2255 PETITION
PERSUANT TO THE FEDERAL RULE OF CIVIL
PROCEDURE 15(C)(1)(B), AND 15(D), AND
. PETITION TO RECONSIDER ITS PREVIOUS
DENIAL OF HIS BURRAGE V. UNITED STATES,
134 S.Ct. 881, 187 L.E.D2d 715 (2014)
Petitioner Federico Ramsey moves the Honorable court for leave to
amend his § 2255 petition pursuant to the Federal Rules of Civil Procedure
(Fed.R.Civ.P.) 15(c)(1)(B), 15(d), and to reconsider its previous denial
of his Bur rage v. United States, 134. S.Ct. 881

187 L.Ed.2d 715 (2014)

to amend, and clarify previously raised claims in his §. 2255 petition
previous motion to amend., and the fact that Burrage announces a new sub­
stantive rule of law applicable to cases on initial collateral review.
Good cause exists to grant this petition.
1. On December 2 > 2014, Ramsey filed his first motion to amend based
on clarifying and amplifying to include appellate counsel’s ineffectiveness.
He stated that "He was denied effective assistance of appellate counsel
when his attorney failed to raise all the claims presented in his § 2255
on direct appeal. Hereby fully incorporated to this additional theory/claim."
2

On February 13

2015, Ramsey filed his motion to add a new claim

based on Burrage v. United States, 134 S.Ct. 881, 187 L.Ed.2d 715 (2014).
Petitioner posit the flawed jury instruction here in this case is itself
1;

r
, •

a stand alone ground to vacate the sentence and or correct sentence because
the enhanced term imposed under U.S.S.G. §2D1.1A2 is premised upon a preponderance of evidence absent a specific jury finding beyond a reasonable
doubt in light of Burrage.
'3• On 'July, 201-5 in Ramsey's reply to the government's opposition
he raised the fact that Burrage should

apply retroactive to his case....

4. Under Fed.R.Civ.P. 15(d) contemplates supplemental pleadings "settin
out any transaction, occurrance, or event that happen after the date of
the pleadingto be supplemented." (emphasis added),
MEMORANDUM OF LAW
The Court may exercise discretion to permit the argument as "relating
back" to the original motion pursuant to Fed.R.Civ.P. 15(c)(1)(B). See
United States v. Espinoza-Saenz, 235 F.3d 501, 505 (10th Cir. 2000)
(explaining Rule 15(c) as it applies to untimely proposed amendment to
§ 2255 motions). A Court has discretion to permit an untimely amendment
to a § 2255 where the proposed amendment (1) clarifies or amplifies a
claim or theory in the original motion by way of addtional facts; and
(2) does not seek to add a new claim or insert a new theory into the
case. Id.
The Court must liberally construe Ramsey's pleadings. Mcbride v.
Deer, 240 F.3d 1287

1289 (10th Cir. 2001).

Ramsey will demonstrate that both trial and appellate counsels rendered
ineffectiveness, and demonstrate that his Burrage claim relates back to
claims 1,13, 14, A,. E

i, and ii, and that Burrage is retroactive.

Ramsey will quote the relevant language that will demonstrate that
he raised a Burrage claim.
Claim:1. "That rather than conduct a reasonable investigation into
the actual causes of overdose injuries and death of each
2

,

t

alleged victims ... trial counsel merely chose to only enter
into "stipulation" with counsel for the government based upon,
which relieved the prosecutria of her burden of proof...."
Document 784, at 7
Claim: 13. "That trial counsel's
tionally deficient in
contest the "cause of
purportedly died from

pretrial performance was constitu­
that counsel failed to reasonably
death" of the alleged victims that
overdosing on heroin."

Document 784, at 10.
Claim: A

"that counsel's trial performance was constitutionally
deficient in that he failed to call upon or subpoena a
medical examiner who could have testified to the victims'
usage of other illicit-drugs along with prescription and
non-presecription pharmaentical narcotics. Prejudice is
demonstrated in that the actual causes of the alleged
victims' death was solely presented by the prosecution
without any objections or presentations of any evidentiary
facts to the contrary from trial counsel. Thus, the fact
finders had only one version of the evidence and the ad­
versarial system was not put to a true test by counsel...."

Document 784, at 11.
Prejudice is demonstrated in that all of the above-named
government witnesses were permitted to give one-sided
testimonial evidence regarding the alleged causes of each
of the decendents' deaths and or believed causes of their
own injuries from herion overdoses. Significantly, the
above-named doctors or physicians gave expert opinion that
were uncotected with respect to the alleged causes of the
decendents' death. Nonetheless, each and every alleged
victims were also using and had used other drugs, e.g.,
pharmacutical drugs. Therefore, each victims' injuries
and or death may have resulted from multi-drug toxicity
or poly-drug toxicity. Counsel's pretrial "stipulation’’
as to the cause of death amounted to an unauthorized and
unapproved concession of guilt."
Document 784, at 11.
"In support of this constitutional violation or meritorious
allegation movant states that ocycodone, tetrahydrocannabinol
and other pharmacentical drug were found in the system of
some of the decendents. These facts were revealed during
hospital emergency room care visits and during autospsy
procedures."
Document 784, at 12.
3

Claim: E

That counsel's trial performance was constitutionally
deficient in that his complete failure to challenge the
drug, evidence before and during trial. Which, prevented
7:y (and still prevents) movant from "proving that any of
the drug substance allegedly, purchased from .one of the
■ alleged co-conspirators were the but-for cause of the
alleged victims deaths or serious bodily injuries via
overdose solely on each of their use of heroin." Further­
more, counsel's pretrial and trial ’'stipula.tion[s ]" clearly
shows that he neglected to contest the drug evidence through­
out. the critical pretrial stage and at trial...."

.

Document 784, at 12.
ft

Claim: i

at sentencing he once again neglected to challenge
the actual causes of the alleged victims' deaths. Prejudice
is shown in that counsel knew or should have known that
failure to object to, or otherwise challenge the purported
causes of death of the alleged victims' would be considered
by the court as an enhancement in increasing the sentenencing
range imposed on this case."
V''«' ’•

.

Document 784, at 13
Claim: ii .

... his unprofessional omissions in failing to conduct
a reasonable pretrail investigation and afterwards
challenge the actual cause of the alleged victims' demise
deprived movant Ramsey of both substance and procedural
rights. ••• Such negligence allowed the movant to receive
improper enhancements under the sentencing Guidelines and
.. 21 U.S.C. § 841(b)(1)(c). for heroin being, the but-for
cause of each victims deaths despite the fact that the
victims were multiple drug users and abusers. And there­
fore, may have overdose as: a result of their use of multiple
drugs (also known as poly-drug toxicity and or multi-drug
toxicity).

■ .♦

Document 784, at 13.
QUESTION PRESENTED UNDER RULE 15(c):

.

1. Whether the Supreme Court's recent decision in Burrage v. United
States, 134 S.Ct. 881

5

187 L.Ed.2d"715 (2014), interpreting statutory

language concering a sentencing enhancement, requires that the court set
aside Ramsey's conviction and/or sentence on his conviction

and 2.

whether Ramsey’s trial and appellate counsels were ineffective.
THE BURRAGE DECISION.
In Janaury .27, 2014, the Supr erne Court issued Burrage v. United States,
4

134 S.ct. 881 > 187 L.Ed.2d 715 (2014)

In that case, Marcus Burrage was

charged with violating § 841(aj(1) for distributlng heroin to Joshua Banka
who later died The government alleged that Burrage
was subject to the
enhanced penalty because Banka's death "resulted from ft the heroin use.
Burrage, 134 S. Ct. at 885. Two medical expert s tes tified.regarding the
cause of Banka's death. Id. The first testified that multiple drugs were
present at the time of death and that only the heroin was above the therapentic range, but he was riot sure "whether Banka
s would have lived had
he not taken the heroin." Id. The expert opined that the combined drugs
caused

It

respiratory and/or central nervnous system depression," and the
heroin was a "contributing factor" to Banka's
death. Id. The second
expert also testified that the heroin played a "contributing role," but
could not say whether Banka would have lived had he not taken the heroin,
■ Id

at 886. The jury was instructed/ that, the government only had to
prove
that the heroin was a contributing cause" of death
Id, Burrage was

convicted and received the enhanced penalty. Id.
The Eighth Circuit affirmed. United States v. Burrage, 687 F.3d 1015
(8th Cir. 2012). The Supreme Court
ing cause standard by stating:
death to 'result from

rejected the Eighth Circuit's contribut-

The language Congress enacted requires.

use of the unlawfully distributed drug

not from
a combination of factors to which drug
use merely contributed." Burrage,
134 S.Ct. at 891. Instead, the. Court held:, "at least where
use of the
drug distributed by the defendant is

not an independently sufficient

cause of the victim's death or serious bodily injury > a defendant cannot
be liable under the penalty enhancement provision of 21 U.S.C. § 841(b)(1)(C) unless such use is a but-for cause of the death."
Id. at 892.
Ramsey's conviction on the enhanced charge, count-1 must be set
5

side in light of Burrage because the court did not instruct
on "but-for"
causation.
When a Supreme Court decision "results', in a new rule,’ that rule
applies to all criminal cases still pending on direct review.
As to
convictions that are already final, however,
the rule applies only in
limited circumstances." Schriro v. Summerlin 542 U.S. 348
351, 124
S.Ct. 2519, 159 L.Ed.2d 442 (2004)(citation omitted). While substantive
rules generally apply retroactively, new procedural rules do

not. See
id. at 2522-23. Burrage
announce a new substantive rule of law applicable
to cases on initial collateral review.
TRIAL AND APPELLATE COUNSELS INEFFECTIVENESS:
Ramsey s trial and appellate counsels cause any procedural default
of this claim. A meritorous claim of ineffective
assistance of counsel
constitutes cause and prejudice for
purposes of summounting the procedural
bar. United States v. Horey, 333 F.3d 1185

1187 (10th Cir. 2003). A

successful claim of ineffective assistance of counsel must meet the two
prong test set forth in Strickland v. Washington, 466 U.S. 688, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). First, a defendant must show that his
counsel's
performance was deficient in that it "fell below an objective standard of
reasonableness." Id. at 688. Second, a defendant must show that
counsel's
deficient performance actually prejudice his defense. Id. at 687. That
is, that "there is a reasonable possibility that, but for counsel's
professional error, the result of the proceeding would have
been different."
Strickland, 466 U.S. at 694.
Ramsey's trial counsel was ineffective for failing to raise the "butfor

causation argument at pretrial and,trial, and appellate counsel also

failed to raise the "but-for" causation argument on direct appeal because

6

there was a circuit split- on the issue during pretrial,
trial, and appeal,
and . the Tenth Circuit was silent At the time of trial,

there was a split

amoug the circuit as the. governments burden of proof to establish that
the victim's death or serious injury "result from" the defendant's
distributuion of. drugs . Appellate .ccounsel -failed; to raided .this claim
on appeal, even thus there was a split among the circuit
See United States
v Harfield, 591 F.3d 945
948 (7th Cir. 2010)(The statutory term "result
■>

from

■

required the government to prove the "death or injury would not have

occurred had the drugs not been ingested

'but-for' (had it not been for)

the ingestion, no injury."); United States v. Rodriguez, 279 F.3d 947,
951 (llth Cir. 2002)(same); United States v •Pacheco, 489 F.3d 40, 46-47
(lSt. Cir.. 2007)("the government was not required to show that [the drug]
was either the sole or the direct cause of [the victim's] injurious;
it
had to show only that there was a but-for causalI connection be tween [the
drug] and those injuries.")

United States v. Martinez, 588 F.3d 301,

318-19 (6th Cir. 2009)(" proximate cause is the appropriate standard to
apply in.determining whether a health care: fraud violation '.result in
death."); United States v Carbajel, 290 F.3d 277, 284 (5th Cir. 2002)
(strict liability

no prooof of proximate causation or reasonable foreseeabilty); United States v.Martinez, 412 F.3d 859, 862 (8th Cir. 2005)
("results from" requirement is met by a "contributing cause.").
In United States v. Dupree, 108 Fed. App'x 602, WL 1941305 (10th
Cir. 2004), the Tenth Circuit held that counsel was. ineffective for
failing to raise an issue when there was a circuit split and the Tenth
Circuit had not.yet ruled on the issue. Therefore, in light of the circuit
split at the time of pretrial > trial
and appeal, it is at least arguable
that both trial and appellate counsels v
were obligated to raise this issue.
7

Ramsey, must show that both trial and appellate counsels
performance actually prejudiced his defense

deficient

Strickland, 466 U.S. a t 6 8 7 .

That is, Ramsey "must show aa reasonable probability that, but for
counsels '
unreaebnable \ 4Tf^
raide'/ thisfifsud jar£ t f or
further appellate review],, and appellate counsel failure to file a merit
brief, he would have prevailed on appeal." Smith v. Robbins, 528 U.S. 259,
286, 120.S.Ct. 746, 764,. 145 L. Ed . 2d 756 ( 2000).

,

Ramsey have, established prejudice because regardleSs of the outcome
.at trial, and at the Tenth Circuit on his direct appeal, he would have
ultimately prevailed on his appeal at the Supreme * Court had

he raised the

It

but-for" issue.Burrage holds that

the language. Congress enacted requires

death to 'result from use of-the unlawfully distributed drug
, not from a
combination of factors to which drug use merely contributed."
Id. at 891.
"At least where use of drug distributed by the defendant
is not an independently. sufficient cause of the victim's death or serious bodily injury,
a defendant cannot be liable under .the pana'.It.y enhancement provision of
21 U.S. C., § 841(b)(1)(c) unless such
use. is but-for cause of the death. M
Id.•892.
This evident is not sufficient to support the "but-for" causation.
Burrage, 134 S.Ct. at 891. It render Ramsey/'s sentence unlawful and
unconst itutlbnal:.
Numerious District courts and Courts of appeals had held that Burrage
is retroactive and some cases the
government has conceded its retroactive.
See United States v

Schneider, 112 F.Supp.3d 1197 > 1207 (D. kan. 2015)
("The government; concedes, and the. court agrees
that Burrage announces
a new substantive rule of law. applicable
tp caseson initia1 collateral
review."), aff, no 15-2347,
2016 U.S. App. Lexis 19932, 2016 WL 6543342
(10th Cir. Nov 4, 2016); Gaylord
v. United States 829 F.3d 500, 505
.

8

(7th Cir. 2016)(Burrage narrowed the scope of the."death result" enahncement and is thus, substantive and applies retroactive"); Krieger v. United
States, 842 F.3d 490 (7th Cir. 2016)(same). The government has made
con­
cession before several other courts which have accepted the concession.
See Ragland v. United States
government, conceded . • «
v. United States

784 F. 3d 12.13

1214 (8th Cir. . 2015.) ("The

Burrage applies retroactively")

see also, Weldon

no. 14-0691-DRH, 2015 U.S. Dist. Lexis 50959, 2015 WL

1806253, at «3-(S.D. Ill. Apr.. 17, 2015)(the government conceded that
Burrage is substantive in nature and is retroactive, but argued that it
was inconsequential for other reasons),. vacated, on other grounds, no.
15-1994, 2016 U.S. App. Lexis 15626, 2016 WL 4468077 (7th Cir. Aug. 24
2016); United States v. Snider, no.3:07-CR-124-SI, 2016 U.S. Dist. Lexis
49420, 2016 WL 1453878, at:*10 (D. Or. Apr, 13, 2016)(accepting government concession that Burrage standard applies) ; Santillana v. Upton, 2017
U.S, App'. 747 (5 th Cir. Jan. 11', 2017) (Fifth Circuit held Burrage applies
retroactively, and reverse and remand Section 2241 petition).
The district: court ruling on this claim utilized decisions of numerous
district courts to denied releif, that have issued opinions holding that
Burrage does not apply retroactively although none with any significant
analysis. Stewart y. United States, na 15-CV-73-JBS

89 F.Supp.3d 993,

.2015 U.S. Dist. .Lexis 13762, 2015 WL 477226, at *2 (E.D. Wis. Fed. 5, 2015);

:

United States v. Bourlier, No. 3:14CV609, 2014 U.S. Dist.
Lexis 166432,
2014 WL 6750674 at *2 ( . N . D. Fla
Dec. 1, 2014); Alverez v. Hastings,
No. CV214-070, 2014 U.S. Dist. Lexis 124420, 2014 WL 4385703,
at *1
(S.D. Ga. Sep. 5, 2014); De La Cruz v. Quintana, No. 14-28-KKC, 2014
U.S,. Dist. Lexis 60526 r 2.014 WL 1883707 at *6 (E.D. Ky. May 1, 2014);
Taylor v. Cross No. 14-CV-304, 2014 U.S. Dist, Lexis 39858
2014 WL
9

1256371

at *3 (S.0. Ill. Mar. 26, 2014); Powell v. United States, No.

3:09-CV-2141, 2014 U.S. Dist. Lexis 144289, 2014 WL 509272, at *2 (D.
Conn. Oct. 10, 2014)); see also, Minaya v. United States, 41 F.Supp.3d
343, 345 (S.D. N.Y. 2014).
The previous cited precedents has concluded that Burrage is retroactive and should reconsider its previous ruling, and should follow suit,
furthermore, Ramsey's Rule 15(c) arguments relates back to his initial
claims cited above.
Ramsey raised in claim: 2, "the fact that ... Also such active pretrial performance would have gotten counsel to actively and sincerely
seek a pretrial reasonable plea bargain of his client Ramsey s behalf.
Whereby Ramsey may have chosen to avoid going to trial to be subjected
to such harsh punishment...." Document 784, at 8.
A. FORMER PRETRIAL COUNSEL RENDERED CONSTITUTIONALLY
INEFFECTIVE ASSISTANCE OF COUNSEL DURING PRETRIAL
STAGES BY FAILING TO APPRISE RAMSEY OF HIS RIGHT
TO ENTER AN OPEN PLEA OF GUILTY TO QUALIFY FOR A
THREE (3) LEVEL REDUCTION, IN VIOLATION OF HIS
SIXTH AMENDMENT RIGHT.
.
During pretrial Attorney Kenton M. Hall provided constitutionally
ineffectiveness by failing to apprise Ramsey of the option and benefits
of entrying an open plea.
Hall rendered constitutionally ineffectiveness because he neglected
to apprise Ramsey about the possibility of entrying an open plea in a
timely manner, which would have resulted in a sentence of 210 months-this calculation is based on the lower end sentence imposed. Ramsey
arrives at the. 210-262 months by departing three (3) levels for acceptance
of responsibility from the total offense level of 40, criminal history
category 1 calculation. Hall's failure to apprise Ramsey of the favorable
plea option caused him prejudice and ultimately
10

receiving a 292-month

sentence

instead-of a 210-month sentence. Ramsey's 3-level reduction

would had resulted in a guidelines range of 210-262 months. Hall neglected
to advised him of this more favorable plea option of entrying* an open plea
whereby he would be eligible for a 210-262 month sentence

and a sentence of

210 months.
Hall neglected to apprise Ramsey of this option. Ramsey has sufficiently
demonstrated that Hall deprived him of an opportunity to make a reasonable
informed decision of whether to enter an open plea, instead of proceeding
to a trial.
A claim of ineffective assistance of counsel in negotiating and
advising a defendant

to plead guilty is properly raised in a collateral

proceeding. See United States v. Ibarra-Coronel, 517 F.3d 1218, 1222
(10th Cir. 2008)(citing United States v. Galloway, 56 F.3d 1239, 1242
(10th Cir. 1995)). United States v. Gutierrez-Vasquez, 373 F. App'x 860,
862-63 (10th Cir. 2010).
Hall provided ineffectiveness by neglecting to apprise Ramsey of the
favorable option and benefits of timely entrying an open guilty plea.
The different in sentencing would have been sustaintion--210 month sentence
for example--Ramsey was prejudiced, because "any amount of actual jail
time has Sixth Amendment significane." Glover v. United States, 531 U.S.
198, 203, 121 S.Ct. 696, 148 L.Ed.2d 604 (2001). As a result Ramsey has
satisfied the requirement that he show a reasonable probability that his
sentence would have been shorter had he plead to an open plea.
In support of this claim Ramsey cites to United States v. Booth,
432 F.3d 542, 547-49 (3d Cir. 2005)(counsel failure to inform the
defendant about the option of entrying an open plea resulted in the
defendant's ignorance of an unilateral action he could have taking
11

* *

(entrying an open guilty plea), which would have.resulted in a;significant
reduction at sentencing).
Clearly,. Hall ’’committed serious errors in light of prevailing profes
sional norms

such .that his legal representation: fell below an objective

standard of reasonableness” and there is
but for his unprofessional errors

I

a reasohable probabi 1 i ty tha t,

the result of the proceeding would

have been different.”. Grant v. Tremmell, 727 F.3d 1006, 1017 (10th Gir.
2013)(internal quotation marks omitted)(quoting Wickerly v
F.3d 1171

1176 (10th Cir. 2009)), cert, denied, 1.34 S.Ct

Workman, 580
2731,. 189 L.Ed

2d 771 (2014).
Hall neglected to provide Ramsey with the necessary, information relevant
to entrying an open plea needed to make an informed and intelligent decisior
whether to pursue an open plea in:timely resolving his case, prejudiced
him.
Consideration of the undisputed factual facts supports a finding that
Ramsey was prejudiced by Hall's omitted advice on. enterying an open plea
option. This favorable plea option that was not utilized would have prov.idec
an avenue in avoiding an increase sentence. Ramsey would have been in a
position to avoid any increase imprisonment, and an opportunity for the
court to sentence him accordingly, had he been represented effectively
by competent counsel. Thus it is reasonably probable that. Ramsey would
have ended up with a sentence less severe, than the 292 months .ultimately
imposed. This omission significantly, undermined Ramsey's, ability to make
a knowingly decision on the best resolution of his case.
The facts presented demonstrated both that Hall s performance was
constitutionally deficient and;that that performance prejudiced Ramsey.
Ramsey is entitled to a resentence of 210 months sentence, or alternatively
12

f

f

a prompt evidentiary hearing should be convened.
'v

CONCLUSION

Wherefore, for the^aforesaid reasons, Ramsey respectfully avers that
the Honorable Court revisit its previous ruling based oh Burrage not being
applicable retroactively, and grant his .amended claims pursuant to Fed.R.Civ.P. 15(c). and 15(d) , or alternatively, convene a prompt evidentiary
hearing to fully develop"'any factual, ambiguity of the current record.
I Frederico Ramsy declare under the penalty of perjury that the
aforesaid undisputed factual facts are occurrate and correct, to the
best of my personal knowledge and recollections pursuant to 28 U.S.C.
§ 1746.

:

CERTIFICATE OF SERVICE
I hereby certify that on this 15 day of March

20.17, a copy of the

foregoing petition was furnished upon: AUSA, Sheri Catania, 500 State
Avenue^ Suite 360, Kansas. City, Ks ,66101, by .providing it to, prison
officials for mailing utilizing the legal mail system, first class U.S.
mail postage prepaid.
Respectfully submitted,

fid&ri c.o 'PtaMS e_>|
Frederico Ramsey
USMCFP-Springfield
Reg. No.: 12070-031
P.O. Box 4000.
Springfield, Mp 65801

13

1

X

APPENDIX: C

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 1 of 15

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS

UNITED STATES OF AMERICA,
Plaintiff,

)
)
)
)

)

v.

FREDRICO RAMSEY,
Defendant.

Case No. 09-20046-04

)
)
)
)

MEMORANDUM AND ORDER
This matter is before the court on defendant Fredrico Ramsey’s Motion Under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody (Doc. 784) and
defendant’s Motion to Appoint Counsel (Doc. 817). Defendant claims that his attorney provided
/

ineffective assistance of counsel before trial, during trial, and at sentencing.
I. FACTUAL BACKGROUND
Defendant was charged with conspiracy to distribute and possess with the intent to distribute
100 grams or more of heroin with death and serious bodily injury resulting (Count 1); two related
counts of distributing heroin (Counts 2 and 8); and one related count of possession of heroin with the
intent to distribute (Count 9). (Doc. 285.) From November 22, 2010, to December 16, 2010, the court
held a trial, and the jury found defendant guilty on all counts. On July 20, 2011, the court sentenced
defendant to 292 months’ imprisonment on Count 1 and 240 months’ imprisonment on Counts 7, 8,
and 9—all to run concurrently.

-1-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 2 of 15

Defendant timely filed a Notice of Appeal. (Doc. 601.) On appeal, defendant argued the
district court erred in denying his Batsonx challenge and refusing to sever his trial from his
codefendant, Verdale Handy. Defendant also argued the evidence was insufficient to sustain the
conspiracy conviction and one of the convictions for possession with intent to distribute heroin. On
April 17, 2013, the Tenth Circuit denied defendant’s appeal on the Batson challenge and affirmed
defendant’s convictions and sentence. (Doc. 767.)
On October 3, 2014, defendant filed a Motion for Reduction of Sentence. (Doc. 780.) On
November 3, 2014, the defendant filed a Motion for Order for Discovery. (Doc. 781.) The court
denied both motions. (Doc. 783.) The court now considers defendant’s pro se motion to vacate, set
aside or correct his sentence under 28 U.S.C. § 2255.2
II. LEGAL STANDARDS
Defendant argues that his counsel provided ineffective assistance during the pretrial phase, at
trial, and at sentencing. The court applies the standard identified in Strickland v. Washington, 466 U.S.
668 (1984), when determining whether a habeas petitioner’s counsel provided ineffective assistance.
SeeRomanov. Gibson, 278 F. 3d 1145, 1151 (10th Cir. 2002) (applying Strickland). Under-Strickland,
a petitioner bears the burden of satisfying a two-pronged test in order to prevail. First, he must show
that his attorney’s “performance was deficient” and “fell below an objective standard of
reasonableness.” Strickland, 466 U.S. at 687-88. The court affords considerable deference to an
attorney’s strategic decisions and will “indulge in a strong presumption” that counsel’s performance
was not deficient. Welch v. Workman, 639 F.3d 980, 1010 (10th Cir. 2011) (quoting Strickland, 466
U.S. at 689). Counsel’s performance is deficient if it falls “below an objective standard of

1 Batson v. Kentucky, 476 U.S. 79 (1986).
2 The court is mindful of defendant’s pro se status and liberally construes his pleadings. United States v. Pinson, 584 F.3d
972, 975 (10th Cir. 2009) (“Finally, because Pinson appears pro se, we must construe his arguments liberally; this rule of
liberal construction stops, however, at the point at which we begin to serve as his advocate.”).

-2-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 3 of 15

reasonableness ... [based on] prevailing professional norms.” Strickland, 466 U.S. at 688. To prove
ineffective assistance of counsel, the petitioner must show “that counsel did not exercise the skill,
judgment and diligence of a reasonably competent defense attorney,” United States v. Voigt, 877 F.2d
1465, 1468 (10th Cir. 1989), and that counsel’s decisions were “completely unreasonable, not merely
wrong,” Boydv. Ward, 179 F.3d 904, 914 (10th Cir. 1999) (citing Hoxsie v. Kerby, 108 F.3d 1239,
1246 (10th Cir. 1997)). The reasonableness standard is purposefully and necessarily broad, for “[n]o
particular set of detailed rules” would encompass all possible scenarios that an attorney might face.
Bobby v. Van Hook, 558 U.S. 4, 7 (2009).
Under the second prong of Strickland, a habeas petitioner must demonstrate prejudice, which
requires a showing that there is “a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.” Id. at 694. “A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. But, despite the existence of two
prongs, “there is no reason for a court deciding an ineffective assistance claim to ... address both
components of the inquiry if the [petitioner] makes an insufficient showing on one.... If it is easier to
dispose of an ineffectiveness claim on the ground of lack of sufficient prejudice ... that course should
be followed.” Id. at 697.
III. ANALYSIS
Defendant claims twenty-two grounds of ineffective assistance and categorizes the grounds as:
during the pretrial phase (Grounds 1-14); at trial (Grounds A-E); and at sentencing (Grounds I—III).
Several of the grounds defendant argues overlap, and some are in the wrong category. Nevertheless,
the court will address each ground, although not necessarily in the order presented in defendant’s brief.
A. Pretrial Investigation

-3-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 4 of 15

Defendant argues that his attorney failed to sufficiently investigate and challenge the
government’s case. Attorneys have a duty to make reasonable investigations on behalf of their clients.
Kimmelman v. Morrison, All U.S. 365, 384 (1986). However, attorneys are not required to investigate
every fact and potential legal theory, as long as the decision not to investigate is reasonable.
Strickland, 466 U.S. at 691. Thus, “a particular decision not to investigate must be directly assessed
for reasonableness in all the circumstances, applying a heavy measure of deference to counsel’s
judgments.” Id.
Because no two cases are alike, and because “[e]ven the best criminal defense attorneys would
not defend a particular client in the same way,” tactical decisions based on sufficient investigation are
“virtually unchallengeable.” Id. at 689-90. Furthermore, “[w]hen counsel focuses on some issues to
the exclusion of others, there is a strong presumption that he did so for tactical reasons rather than
through sheer neglect.” Yarborough v. Gentry, 540 U.S. 1, 8 (2003). Attorneys are not expected to
prepare for every remote possibility. Harrington v. Richter, 562 U.S. 86, 110 (2011). Lastly, the
Tenth Circuit has stated that, even if the client and attorney disagree on the correct trial strategy, the
“[disagreement over trial strategy is generally not a basis for ineffective assistance of counsel.”
United States v. Ambort, 282 F. App’x 714, 717 (10th Cir. 2008). Here, the court starts with the
presumption that defendant’s attorney was not constitutionally ineffective.
1. Victims’ Causes of Death (Grounds 1,13, and 14)
In Ground 1, defendant claims his counsel was ineffective by failing to investigate other
possible causes of each alleged victims’ overdose injuries and deaths. In Grounds 13 and 14,
defendant claims counsel’s pretrial performance was constitutionally deficient in that counsel failed to
reasonably contest the victims’ causes of death and that defense counsel should have had an
independent autopsy conducted on each and every victim. (Doc. 784 at 4-5.) According to the sworn

-4-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 5 of 15

affidavit of defendant’s attorney, Kenton Hall, defense counsel considered that potential evidence and
determined that he had no good faith basis to challenge the victims’ causes of death. (Doc. 810-1 at 5.)
Defense counsel stated that he “reviewed the discovery concerning the overdose deaths as well as the
relative purity of the heroin that was distributed during the conspiracy, and confirmed that heroin at the
60% purity level or greater would likely result in death or serious bodily injury.” {Id.) Rather than
waste resources on a losing battle, defendant’s attorney focused on proving his client was not part of
the conspiracy. {Id. at 2 and 5.) The choice to focus on defendant’s innocence—instead of the
victims’ causes of death—is a tactical decision, and this court cannot say the choice was unreasonable
or deficient based on the circumstances and evidence.
2. Pretrial Interviews (Grounds 2 and 6)
Defendant argues that his counsel should have interviewed every cooperating witness.
Defendant’s counsel states that he did not conduct personal interviews of every witness, but he did
review the reports of the interviews, as well as the proffer statements. (Doc. 810-1 at 2.) Counsel also
reviewed the reports and other evidence, which tended to corroborate the substance of the interviews of
the cooperating witnesses. {Id.)
Defendant has failed to show that he was prejudiced by his attorney’s decision to not personally
interview every witness. To be prejudiced, defendant must establish that there is a reasonable
probability that the case would have turned out differently had his attorney interviewed every witness.
First, as the government points out, defendant’s counsel would have had to obtain permission from the
cooperators’ attorneys, which likely would not have been granted. Second, defendant has failed to
satisfy his burden of proof because additional interviews would not have changed the witnesses’
incriminating testimony—these witnesses testified against defendant, and he has not suggested that
interviewing these witnesses would have changed what they said at trial.

-5-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 6 of 15

Defendant specifically claims his counsel was ineffective by not conducting a pretrial interview
of co-defendant Henry Nelson, despite the fact Mr. Nelson had a notarized affidavit proclaiming
defendant’s innocence. This claim fails under Strickland because defendant does not explain how a
pretrial interview of Mr. Nelson would have changed the outcome of the trial. Mr. Nelson was crossexamined, and the notarized affidavit was admitted into evidence, along with other inconsistent
statements the defense addressed during trial. Defense counsel’s affidavit states that he had access to
Mr. Nelson’s prior statements, both written and recorded, and therefore did not need to interview Mr.
Nelson. {Id. at 3.) Defendant fails to explain how conducting an in-person interview would have
impacted the trial or defendant’s decision to enter into a plea, nor is there any credible evidence before
the court tending to show the outcome would have been different.
B.

Assistance in Preparing a Defense

Defendant makes a number of ineffective assistance claims related to defense counsel’s
preparations before trial.
1. Preparing a Defense (Ground 10)
Defendant argues that his attorney “neglected to prepare any defense strategy whatsoever.”
(Doc. 784 at 4.) Defense counsel points out that the defense strategy he used was to show that
defendant was not a member of the alleged conspiracy. Indeed, defense counsel used this strategy as a
defense at trial, which contradicts defendant’s assertion that his attorney neglected to prepare any
defense strategy.
2. Potential Alibi (Ground 7)
Defendant claims that his attorney “neglected and refused” to investigate his alibi defense on
the day the heroin was distributed at 5915 Cernech. (Doc. 784 at 3.) Defendant claims the alibi
witness, Antonio Ramsey, “had timely informed counsel of [defendant’s] whereabouts” on the day of

-6-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 7 of 15

the heroin sale in question, but that defense counsel did not investigate the alibi defense or subpoena
the alibi witness. (Doc. 784 at 3.) However, defense counsel swears in his affidavit that neither the
defendant, nor the alleged alibi witness, contacted him regarding the alibi witness and defense.
Additionally, the affidavit states, “[t]he only time Antonio Ramsey was mentioned by petitioner was to
advise counsel that Antonio Ramsey dropped off petitioner at Henry Nelson’s house so that Henry
Nelson could give petitioner a ride on the day petitioner was alleged to have sold heroin from the
location of 5915 Cernich.” (Doc. 810-1 at 3.) As such, defendant’s sworn statements contradict his
attorney’s sworn statements.
If defense counsel failed to investigate an alibi witness who contacted him directly or who was
otherwise made known to him, then defense counsel’s legal assistance could be considered ineffective.
Moreover, if Antonio Ramsey in fact would have testified that defendant could not have sold heroin on
the day the heroin was distributed at 5915 Cernech, then the result of the trial may have been different.

A- Defendant is entitled to a hearing on the issue of 1) whether Antonio Ramsey contacted defense
counsel about a possible alibi and 2) whether Antonio Ramsey would have provided favorable
^testimony about the defendant’s whereabouts.
3. Withholding Discovery (Grounds 8 and 9)
In Ground 8, defendant claims his attorney “purposely withheld all of the discovery materials
from the petitioner throughout the entirety of the proceedings held on this case beginning during the
pretrial stage and lasted throughout trial and sentencing.” (Doc. 784 at 4.) Defendant also claims in
Ground 9 that his attorney failed to go over the discovery materials with him during the critical pretrial
stage. Defendant’s attorney maintains these claims are false. Defense counsel states that he reviewed
all discovery materials and met with the defendant in person on multiple occasions, and he reviewed
discovery with the defendant as it was made available by the government. (Doc. 810-1 at 4.) Given

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 8 of 15

i

that the court already is granting a hearing on the alibi-witness issue, the court will also allow evidence
on the issue of whether defense counsel timely shared discovery with defendant before trial.
C. Assistance at Trial
1. Pole-Camera Footage (Ground 3)
Defendant next argues that his attorney did not adequately challenge the government’s
evidence. Again, the court gives great deference to the attorney’s trial strategy. Strickland, 466 U.S.
at 691. Attorneys are not expected to challenge evidence if the objection is meritless. See United
States v. Cronic, 466 U.S. 648, 657 n.19 (1984). Subjecting a jury to the “useless charade” of raising
meritless objections can actually work against the client’s interests and make the attorney appear
obstructionist. Id.
The government introduced as evidence video footage taken from a pole-camera showing
defendant participating in drug transactions. Defendant argues his attorney should have challenged the
government’s introduction of these videos into evidence. However, defendant’s attorney believed he
had “no good faith basis, such as an alibi witness, upon which to challenge the evidence.” (Doc. 810-1
at 2.) If the evidence at the hearing shows that Antonio Ramsey contacted defense counsel as a
potential alibi witness, and if thaf alibi places defendant somewhere else at the time the pole-camera
videos were taken, then the court will revisit whether defense counsel’s decision to not challenge this
evidence was objectively reasonable.
Absent proof that Antonio Ramsey contacted defense counsel as a potential alibi witness and
that Antonio Ramsey would have provided an alibi, the court sees no legitimate basis upon which
defendant’s attorney should have moved for exclusion of the pole-camera video. The video was
obtained from lawfully-mounted recording devices. And while defendant claims he is not the subject
in the video, he made that claim at trial. Deputy Justin Branner, who worked as an undercover officer

-8-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 9 of 15

in the case, testified that defendant was in fact the individual who sold him drugs on two separate
occasions. Additionally, Deputy Branner recalled defendant counting the money during the controlled
buys in a particular way.
The court finds that defense counsel was objectively reasonable in not challenging the video,
but the court may modify this finding if defendant proves that Antonio Ramsey contacted defense
counsel as a witness who could have provided an alibi for the time-frame the videos were taken.
2. Voice Recordings (Ground 4) and Expert Analysis (Ground 5)
Defendant argues that his attorney should have objected to the voice recordings and compared
those recordings to voice exemplars (Ground 4), and that defense counsel should have had the polecamera footage and voice recordings analyzed by experts (Ground 5). In his affidavit, defense counsel
states that there was no good faith basis upon which to object to the voice recordings, as the
government laid the proper foundation prior to seeking admission of the evidence. {Id.) Defense
counsel also did not feel he had a “good faith basis upon which to request funding and permission of
the Court for such purpose. A request for funding of expert consultation in his area would have been
purely speculative in that other evidence, such as testimony of cooperating witnesses and police
officers, tended to corroborate the pole-cam and tape-recorded voice evidence.” {Id. at 3.)
The court believes that defense counsel’s rational for not objecting to the properly-admitted
voice recordings, and his reason for not requesting expert analysis, are objectively reasonable
decisions. Defendant may not like the fact that the jury heard voice recordings and watched video
footage of the drug deals, but as the ultimate finders of fact, the jury gets to decide whether it was
defendant, or someone else, on the voice recordings and in the video footage. Here, the jury believed it
was defendant. Defendant has failed to show why objecting to the video footage and voice recordings

-9-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 10 of 15

would have been anything more than a useless charade. In fact, raising these meritless objections
could have been more damaging to defendant’s case than helpful.
3. Crack Cocaine References (Ground 11)
Defendant claims he was prejudiced because defense counsel did not file a motion in limine to
“keep out any and all reference to ‘crack cocaine.”’ (Doc. 784 at 4.) At trial, there was testimony by
witnesses about controlled purchases of crack cocaine from members of defendant’s heroin-selling
conspiracy. However, defendant was not indicted for any crack cocaine offenses, so a motion in
limine seeking to preclude mention of the controlled crack cocaine purchases from his co-conspirators
would have had no merit. Defendant has failed to show that he suffered prejudice as a result of his
attorney not filing a limine motion seeking to exclude all references to the term “crack cocaine” at trial.
4. Batson Challenge (Ground 12)
Defendant claims his attorney’s legal assistance was ineffective because he failed to object to
the racial composition of the jury under Batson v. Kentucky, 476 U.S. 79 (1986). The record,
however, shows that defense counsel joined in the Batson challenge made by co-defendant Verdale
Handy’s attorney.3 (Doc. 658 at 192.) The court denied the Batson challenge, and the Tenth Circuit
affirmed that ruling. See United States v. Ramsey, 510 F. App’x 731, 735 (10th Cir.) cert, denied, 134
S. Ct. 714(2013).
To the extent defendant is claiming his attorney failed to challenge any other peremptory
strikes, defense counsel states that additional objections would have been groundless and in bad faith.
The court agrees. Defendant’s claim that his attorney was constitutionally ineffective by failing to
raise a Batson challenge fails.
5. Victims’ Causes of Death (Grounds A and E)

3 The Batson challenge was raised because the prosecution used a peremptory strike to dismiss an African-American juror.

-10-

1

Case 2:09-cr-20046-CM

Document 819 Filed 09/16/15 Page 11 of 15

Defendant claims his attorney was ineffective during trial because he did not subpoena a
medical examiner (Ground A) or challenge the drug evidence of the victims’ causes of death (Ground
E).‘

The Tenth Circuit has said that “the speculative witness is often a two-edged sword. For as
easily as one can speculate about favorable testimony, one can also speculate about unfavorable
testimony.” Boyle v. McKune, 544 F.3d 1132, 1138 (10th Cir. 2008). Defendants must provide
specifics about the content of an expert witness’s testimony. See Cummings v. Sirmons, 506 F.3d
1211, 1233 (10th Cir. 2007). Although hypothetical testimony might appear helpful, the prosecution’s
subsequent cross-examination could make calling the witness more damaging than beneficial. Boyle,
544 F.3d at 1139. “This is why the decision of which witnesses to call is quintessential^ a matter of
strategy for the trial attorney.” Id.
Defense counsel declares that he is unaware of any expert witness who could have given such
medical testimony, and defendant offers no specifics about who the attorney should have called.
Furthermore, there is nothing in the record to suggest this testimony would have been favorable to
defendant, much less could have changed the trial’s outcome—additional medical testimony could just
as easily be incriminating as exculpatory. This is a classic example of a speculative witness, and the
court has no basis to assume that expert testimony would favor defendant or that it would have
changed the jury’s verdict.
Furthermore, even if defense counsel was aware of a medical expert who could give testimony
about the victims’ past drug use, choosing not to call that witness or otherwise disputing that drug
evidence was still sound strategy. Defense counsel’s strategy focused on showing defendant was not
part of the conspiracy and, therefore, could not be responsible for any deaths or injury resulting from

4 These claims relate to defendant’s claims in Grounds 1, 13 and 14 at the pretrial stage.

-11-

Case 2:09-cr-20046-CM

Document 819 Filed 09/16/15 Page 12 of 15

the overdoses. (Doc. 810-1 at 5.) Testimony from medical examiners would likely contribute nothing
to that defense strategy.
6. Additional Alleged Trial Errors (Grounds B, C, and D)
In Ground B, defendant claims that because his attorney did not call any witnesses for his
defense, including an alibi witness, his counsel was ineffective. In Ground C, defendant claims that
his attorney’s lack of preparation prevented his attorney from “adequately presenting a proper defense
and from effectively cross-examining government witnesses, Bradley Scott Dawdy, Braden Bandel,
Daniel Flores, Carine Stone, and government medical examiner witnesses, Dr. John Bradley, Dr.
Christopher Long, and Dr. Erik Krag Mitchell.” (Doc. 784 at 5.) In Ground D, defendant claims that
his attorney was ineffective by not conducting pretrial interviews of “persons included but may not be
limited to Bradley Scott Dawdy, Braden Bandel, Daniel Flores, Carine Stone, Rachel Teasly, Detective
Justin Branner, Flenry Nelson, Clifton Milton, Ferdinand Handy and Susan Sergheyev.” {Id. at 6.)
Defendant fails to identify any witness (but for Antonio Ramsey) who should have been called
on his behalf, nor does defendant detail the subject of any such witness testimony. Defendant lists
witnesses he believes should have been interviewed before trial by his attorney, but defendant makes
no detailed assertions as to how not interviewing these witnesses prejudiced him, and the court already
found that the decision to not interview these witnesses was reasonable given the discovery defense
counsel had reviewed.
Regarding defense counsel’s failure to call Antonio Ramsey, the court has granted defendant an
evidentiary hearing. Accordingly, in this limited regard, the court grants defendant an evidentiary
hearing on Ground B to determine whether defense counsel was ineffective by failing to call Antonio
Ramsey as an alibi witness.

-12-

Case 2:09-cr-20046-CM

r

Document 819 Filed 09/16/15 Page 13 of 15

Regarding defense counsel’s cross examination of government witnesses, defendant’s claims of
error involve the overdose victims’ causes of death. The court has found that defense counsel’s
decision to pursue an innocence defense was reasonable. Accordingly, to the extent defense counsel
did not conduct cross examinations regarding the victim’s drug overdoses, the court finds this decision
to be reasonable.
C.

Assistance at Sentencing
1. Victims’ Causes of Death (Grounds I and II)

In Ground I, defendant claims that counsel’s performance was constitutionally deficient
because he failed to challenge the cause of the victims’ deaths. In Ground II, defendant claims that
counsel was ineffective for failing to conduct an investigation into the cause of death of the victims.
These are essentially the same claims defendant alleged in Grounds 1,13, and 14 (pretrial stage) and
Grounds A and E (trial stage). As already discussed, defendant fails to meet the prongs of Strickland
on the issue of refuting the victims’ causes of death.
2. Conflict of Interest (Ground III)
Defendant claims defense counsel’s performance caused “a conflict of interest against the
movant throughout the sentencing phase of this case because of counsel’s lack of sincere advocacy and
lack of thoroughness in his preparations for trial prevented him from even attempting to contest either
the drug evidence and or the alleged victims’ purported causes of death.” (Doc. 784 at 12.) Defendant
claims that because of this conflict of interest, he received sentencing enhancements that did not apply
to him. (Doc. 784 at 7.) Defendant does not specifically state what sentencing enhancements were
applied to him as a direct result of the alleged “conflict of interest,” and the court does not believe that
defense counsel’s choice of defense—defendant’s innocence—created any sort of conflict of interest at
sentencing.

-13-

s

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 14 of 15

3. Burrage v. United States
In his reply brief, defendant states that “Burrage should apply retroactively to his case on
collateral review.” (Doc. 812 at 1.) In Burrage, the Supreme Court held that a defendant cannot be
liable for the death-results enhancement provision unless the use of the drug supplied was a but-for
cause of the death. Burrage v. United States, 134 S. Ct. 881, 892 (2014).
Courts have decided that Burrage did not announce a new rule of constitutional law and that,
even if it had, the Supreme Court did not make Burrage retroactively applicable. Stewart v. United
States, No. 15-CV-73-JPS, 2015 WL 477226, at *2 (E.D. Wis. Feb. 5, 2015); United States v. Bourlier,
No. 3:14cv609, 2014 WL 6750674, at *2 (N.D. Fla. Dec. 1, 2014); Alvarez v. Hastings, No. CV214070, 2014 WL 4385703, at *1 (S.D. Ga. Sep. 5, 2014); De La Cruz v. Quintana, No. 14-28-KKC, 2014
WL 1883707, at *6 (E.D. Ky. May 1, 2014); Taylor v. Cross, No. 14-CV-304, 2014 WL 1256371, at
*3 (S.D. Ill. Mar. 26, 2014); Powell v. United States, No. 3:09-CV-2141, 2014 WL 5092762, at *2 (D.
Conn. Oct. 10, 2014)); see also Minaya v. United States, 41 F. Supp. 3d 343, 345 (S.D.N.Y. 2014).
The court finds Burrage is inapplicable to defendant’s case.
D.

Request for Counsel

Finally, defendant requests that he be appointed counsel to assist him with this habeas
proceeding. The court believes that the interests of justice favor appointing an attorney for the purpose
representing defendant at the evidentiary hearing. The court will therefore appoint counsel for
defendant and set a hearing to receive evidence on the following, limited issues:
1. Whether defense counsel was contacted by Antonio Ramsey or was otherwise informed
that Antonio Ramsey could have provided an alibi for the drug transactions that
occurred at 5915 Cernech (Grounds 7 and B).

-14-

Case 2:09-cr-20046-CM Document 819 Filed 09/16/15 Page 15 of 15

%

2. Whether Antonio Ramsey would have provided testimony at trial that defendant could
not have sold heroin on the day the heroin was distributed at 5915 Cernech.
3. Whether defense counsel timely shared discovery with defendant (Grounds 8 and 9).
The parties should be prepared to address and present evidence on both prongs of the
Strickland test.
IT IS THEREFORE ORDERED that defendant’s Motion Under 28 U.S.C. § 2255 to Vacate,
Set Aside, or Correct a Sentence by a Person in Federal Custody (Doc. 784) is denied in part and taken
under advisement in part.
IT IS FURTHER ORDERED that defendant’s Motion to Appoint Counsel (Doc. 817) is
granted. The court will appoint counsel for defendant and set a hearing on defendant’s claims of
ineffective assistance of counsel, as set forth in this order.
Dated this 16th day of September, 2015, at Kansas City, Kansas.
s/ Carlos Murguia_________
CARLOS MURGUIA
United States District Judge

-15-

